<html>
<title> - ADDRESSING UNUSED AND VACANT FEDERAL COURTHOUSES: A CASE STUDY IN MIAMI-DADE, FLORIDA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   ADDRESSING UNUSED AND VACANT FEDERAL COURTHOUSES: A CASE STUDY IN 
                          MIAMI-DADE, FLORIDA
=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2013

                               __________

                           Serial No. 113-28

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
81-525                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 8, 2013....................................     1

                               WITNESSES

Mr. John Smith, Regional Commissioner, Public Building Service, 
  General Services Administration
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  Government Accountability Office
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Eduardo J. Padron, Ph.D., President, Miami-Dade College
    Oral Statement...............................................    31
    Written Statement............................................    33

                                APPENDIX

Letter about Dyer Courthouse and Ferguson Courthouse.............    55
Resolution No. 05/2013, a Resolution of the Board of Directors of 
  the Miami Downtown Development Authority.......................    57
Dade Heritage Trust, Submitted for the Record....................    58
Letter from Dr. Eduardo J. Padron, Ph.D., President, Miami Dade 
  College........................................................    59


   ADDRESSING UNUSED AND VACANT FEDERAL COURTHOUSES: A CASE STUDY IN 
                          MIAMI-DADE, FLORIDA

                              ----------                              


                         Friday, March 8, 2013

                   House of Representatives
              Subcommittee on Government Operations
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:45 p.m., in 
Chapman Conference Room, Miami-Dade College, 300 N.E. 2nd 
Avenue, Miami-Dade, Florida, Hon. John L. Mica [chairman of the 
subcommittee] presiding.
    Present: Representatives Mica and DeSantis.
    Also Present: Representatives Ros-Lehtinen and Wilson.
    Staff Present: Sharon Casey, Senior Assistant Clerk; Ashley 
Callen, Professional Staff Member; Gwen D'Luzansky, Research 
Analyst; Mark Marin, Director of Oversight; and Cecelia Thomas, 
Minority Counsel.
    Mr. Mica. I would like to welcome everyone. I am 
Congressman John Mica. I have the honor and privilege of 
serving as Chair of the Government Operations Subcommittee of 
the House Oversight and Government Reform Committee in the 
United States House of Representatives, and that committee is 
the chief investigative committee in Congress.
    I am pleased to be joined by my colleague, Mr. Ron 
DeSantis, a member of that committee also. He is also a 
Floridian, and we are delighted that he would join us here and 
take time in this important oversight hearing today in Miami.
    Then we have two Miamians. First, the senior member with us 
today from the Miami delegation, former Chair of the Foreign 
Affairs, Government Relations, International Relations, 
whatever name they had there--it has changed a few times--the 
very distinguished lady from Miami, Ileana Ros-Lehtinen, and I 
believe that before redistricting she had the community 
college, and she is a distinguished alumnus of the Miami-Dade 
then-community college, now college. So we are extremely 
pleased that she would join us for part of this hearing, again 
representing Dade County and South Florida. We are just 
delighted to have her.
    Then, a newer member in Congress, and we are pleased to 
have her, and she is now representing, I understand, Miami-Dade 
College in her congressional district, Frederica Wilson, and we 
are delighted to have her.
    The first order of business, too, that I would take on is 
that I will ask unanimous consent that both Ms. Ros-Lehtinen 
and Ms. Wilson, not being members of the panel, be allowed to 
participate in this hearing today. Without objection, so 
ordered. Okay.
    And, of course, as the two members of the panel complete 
their opening statements and also any questioning, you will be 
allowed to participate fully. So, thank you.
    We have three witnesses today: John Smith, the Regional 
Commissioner of the Public Buildings Service at the General 
Services Administration; and Mr. Mark Goldstein is Director of 
Physical Infrastructure issues at the Government Accountability 
Office; and coming in the door in the left lane is Dr. Eduardo 
Padron, and he is the President of Miami-Dade College.
    First I have to welcome him as a witness, witness today, 
and also partly responsible for--well, very responsible for 
today's hearing which is at Miami-Dade College. Dr. Padron, 
again, we are delighted to have you both as a witness and also 
as an instigator of this hearing and distinguished president of 
the college.
    Miami-Dade, do we still hold the title of the largest 
community college in the world, I believe, as far as 
population? We are very pleased to be on the campus today.
    Let me also proceed with a little bit of housekeeping. The 
order of business will be opening statements by members, and 
then we will turn to our three witnesses for their statements. 
But a little bit of business.
    This is an investigations and oversight committee of 
Congress, and it is customary that we swear in our witnesses, 
and you all will testify today. So I would ask you to stand, if 
you would, raise your right hand.
    [Witnesses sworn.]
    Mr. Mica. Let the record reflect that the witnesses 
answered in the affirmative, and again I welcome them and thank 
them for their participation.
    With that preliminary introduction and swearing in of our 
witnesses, I am going to take the liberty of opening with some 
commentary today, and then I will turn to Mr. DeSantis and our 
other two impaneled members of Congress.
    So again, I thank Miami-Dade for hosting us. It wasn't that 
long ago, in fact, I see August 6, 2012, that I had the 
opportunity as Chairman of the Transportation and 
Infrastructure Committee to hold an oversight hearing. The 
Transportation Committee has a narrow scope of oversight, in 
particular over the General Services Administration and some 
public buildings. The committee on which I serve and have 
served and the subcommittee, which we are representing, Mr. 
DeSantis and I today, the Government Operations Committee, has 
very broad jurisdiction and investigative power and authority 
for oversight across the entire spectrum of the Federal 
Government.
    So that hearing was held here, and a funny thing happened 
after that hearing. I got a letter from a fellow by the name of 
Dr. Padron, and I must for the record an just for putting 
everybody's prejudices on the table, I had the great honor of 
attending Miami-Dade Community College and graduating in 1965, 
but it wasn't this campus. So I had been away for some years 
and was not familiar with the downtown campus. And when we 
arrived, of course, you can see that the Dyer Building is right 
across the street, and I never realized it until that August 
6th hearing, the proximity of the Federal Building, the old 
courthouse and the Miami-Dade campus.
    So Dr. Padron writes me this letter and says, Congressman 
Mica, thank you for holding that hearing on August 6th. We have 
been trying for years to get agreement or some arrangement with 
GSA to acquire or occupy that property. So I was quite stunned 
to find out that we had a very willing local--and it is a 
government partner, an educational institution with great value 
to our community, state, and nation, again someone willing to 
take on the responsibility of assuming the property.
    That hearing that we held, and this hearing again will 
disclose that the property has been vacant for more than five 
years. It is costing $1.2 million, on average, over $6 million 
just to maintain the property, and we are also told that while 
it is partially maintained, it has also incurred very 
significant, in the tens of millions of dollars in damage and 
neglect by just sitting idle, now with mold and, again, 
deterioration of a valuable public asset.
    This is particularly alarming when we are closing down 
essential public services, and we have here a very valuable 
piece of property. The assessed value is maybe $17 million, and 
we pay millions to keep a vacant building vacant. And as I 
said, taxpayers are taking it in the wallet, and that is not 
appropriate at any time, whether we are going bust, as we are 
right now, or in the past, even when we had better revenues.
    Again, the purpose of this hearing is to focus attention on 
valuable Federal assets that are sitting idle. This hearing is 
also going to focus some on hearing about valuable assets that 
are sitting vacant and the continued problems with space 
utilization, and also the issue of over-building of Federal 
courthouses, and we have one of those examples next door in the 
Ferguson Building, which was opened in 2008 and still has some 
space to be built out, still has some courtrooms that are 
under-utilized by virtue of the number of judges we have to 
occupy those spaces.
    The other thing that I think is important to point out is 
that GSA has not had a plan to really move forward either 
before they knew for some two years that the property in 
question today, the Dyer Courthouse, was going to be vacated, 
so actually you can add two to five, you have seven or eight 
years in which there is no plan to dispose of or better utilize 
or protect taxpayer assets.
    Now, some people may say, well, what is Mica doing holding 
another hearing down here? Sometimes it is the only way we can 
get GSA's attention. We started out, the very first hearing 
that I did as Chairman of the Transportation Committee was in 
the Old Post Office in Washington, D.C., downtown, two blocks 
from the White House, vacant. It sat vacant, the Annex next to 
it, for 15 years, half the space, a huge amount of space, prime 
real estate in the center of our nation's capital. We held that 
hearing, for the information of those here, I believe it was in 
February, and then an entire year, and we did it in--it was 32 
degrees in Washington, and we did it in an empty, cold 
building--it was 35 degrees there--just to get folks' 
attention. But we didn't.
    It took us another year and we came back, and on the 
anniversary we actually held the second hearing there, and just 
prior to that, days before that, GSA announced that they would 
be granting private-sector participation in developing the 
property where now 1,000 people may work, 400 hotel rooms, and 
instead of losing $10 million a year, probably gaining $10 
million a year for the taxpayer in revenues from the structure.
    We did a similar hearing in two other locations, and we are 
batting 500 there. This is a good week for the taxpayers 
because where we held a hearing in a vacant power station 
building in Georgetown, also in our nation's capital, 
Georgetown, right behind the Ritz Carlton, 2.08 acres, which 
sat vacant for 10 years. This week, in fact, I think yesterday 
GSA announced, and maybe we can get some confirmation, an 
online auction that is bringing in over $19 million for that 
property. Nothing was done until the day before the hearing, 
when GSA hoisted a ``For Sale'' sign over the property. But 
there is some partially good news in that we have that property 
moving forward.
    The Cotton Exchange, another vacant property in the heart 
of our nation's capital, still sits vacant. And folks, if you 
think we are only talking about three or four properties, there 
are approximately 13,995 more to go that are vacant.
    So the extra space in the Ferguson Building that isn't used 
costs the taxpayers $3.5 million for rent, operation and 
maintenance. The building with extra space, actually the space 
we didn't need was another $48.5 million. The problem of over-
building and under-utilization of property is not common or 
unique to Miami. As I said, it is across the country. We have 
more than 33 new courthouses, 32 of which were overbuilt, and 
again, thousands of buildings and properties sitting vacant are 
under-utilized.
    A couple of weeks ago we went out to Beltsville, Maryland, 
and found 7,000 acres, 500 buildings, of which 200 were vacant. 
So whether it is in South Florida or Maryland, on the Capital 
Beltway, this waste and inefficiency goes on.
    So I look forward to hearing from GSA on where they are 
today and where we hope to be tomorrow. We also look forward to 
hearing from the General Accountability Office and others.
    So with those opening, long remarks, but for the purpose of 
providing background for the record, I am pleased to yield to 
Mr. DeSantis.
    Welcome, sir, and you are recognized.
    Mr. DeSantis. Thank you, Mr. Chairman. Thank you for 
holding this hearing, and thank you for your determined pursuit 
of inefficiencies and waste in government. I know a lot of 
taxpayers appreciate it. That is ultimately what we are doing 
here today. We have a responsibility as elected officials to 
serve the interests of the people who elected us and who pay 
the bills for this government, the taxpayers of our country. To 
see millions of dollars being spent in maintenance fees for 
empty buildings, particularly at a time when we are told we 
have to cut back on key services, it is something that none of 
us should be satisfied with.
    I am also concerned, and I hope this hearing will go into 
the cumbersome process that can be involved in disposing of 
some of these Federal properties. We need to start streamlining 
some of this bureaucracy and red tape. I think it is paralyzing 
us as a country in more ways than one. This is a small example 
of that.
    Then I would just note, with the millions of dollars that 
we are talking about, in the grand scheme of the $3.6 trillion 
of spending that the government does, it is admittedly a small 
portion. But I would remind you that recently the White House 
announced that they were going to suspend White House tours so 
that people were not going to be able to go in and tour the 
White House. It is about $18,000 a week to do that. So from 
this point until the end of the year, if you multiply that out, 
it is about $800,000 that the White House would supposedly be 
saving by not allowing White House tours. Simply by disposing 
of one of these properties, you would immediately be raising 
more revenue than that would cost.
    So the hundreds of examples of this across the country, 
this money does matter, and it is important that we hold the 
institutions of this government accountable.
    So with that, Mr. Chairman, I just thank you again, and I 
yield back.
    Mr. Mica. Thank you, Mr. DeSantis.
    Now the senior member of the delegation from South Florida, 
Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. That means the old broad.
    [Laughter.]
    Mr. Mica. No, I did not say that. We will have to trim the 
record on that one.
    Ms. Ros-Lehtinen, you are recognized.
    Ms. Ros-Lehtinen. Well, thank you, Mr. Chairman. What a 
delight it is to be in Congresswoman Wilson's district. Thank 
you very much for allowing us to come.
    It is a pleasure to have our witnesses here, most 
especially Dr. Padron, who is such a community figure for all 
of South Florida and really our guiding light. Thank you for 
your work and Mr. DeSantis' work in safeguarding the people's 
money. This is a very valuable opportunity to talk about how we 
can save taxpayers money.
    As we know, as the Chairman and Ron have pointed out, 
under-utilized properties are sitting idle at tremendous cost 
to taxpayers and with no public benefit. The Dyer Courthouse 
costs the taxpayers $1.2 million per year and nearly $6 million 
since the building closed five years ago to maintain the 
structure alone, is what it costs. The conveyance of Dyer will 
further contribute to the renaissance that is contributing 
throughout downtown Miami.
    I had an opportunity to see the renaissance as I circled 
around and tried to find this building. It used to be very easy 
to find Miami-Dade College. But the growth here is just 
incredible, and this sadly highlights just another example of 
the Federal Government's gross mismanagement of Federal 
property. The building sits on prime real estate in downtown 
Miami. It makes no sense to continue to throw money down the 
drain.
    Miami-Dade College has an established track record of 
success in the planning and management of facilities 
development, renovation, maintenance, and operations. I know 
because I worked with Dr. Padron in the GSA to transfer some 
properties so that Miami-Dade could use it, and it was just a 
dream come true, and every little inch of space that they could 
have is making somebody's dream come true.
    The courthouse has been vacant, as I said, for five years, 
since the Wilkie D. Ferguson, Jr. U.S. Courthouse opened just 
across the street in 2008. According to GSA, the building needs 
$60 million in renovations to make it usable for other Federal 
agencies or for the private sector. Currently, the courthouse 
shares facilities, including utility infrastructure, parking 
facilities, courtyard and tunnels with the neighboring C. Clyde 
Atkins Courthouse, and GSA estimates that it will cost $10 
million to separate the courthouse from the Atkins Courthouse.
    I know that they have issued a request for information. 
Twenty-four parties have indicated interest in the courthouse, 
and I hope that this meeting that you are having today, Mr. 
Chairman, will give us an opportunity of finding out what 
better uses of taxpayer money we can have, rather than having 
that facility drain us.
    So thank you very much, Mr. Chairman, for having this 
hearing, and I regret that I will not be able to stay for the 
entirety as I have another engagement.
    Mr. Mica. We are very pleased that you would take time and 
join us today, and I know that you have a full commitment. But 
again, since this is so important on your agenda, we wanted to 
give you that opportunity.
    And now, representing the area now and the community 
college, is Representative Wilson, and we are delighted to have 
her join our panel, and I would like to recognize you now for 
an opening statement or comment.
    Ms. Wilson. Thank you. Thank you so much, Chairman Mica, 
and welcome to District 24. I am happy to have all of you here. 
Dr. Padron and I have worked together for maybe 25 years now. 
When I got the information that this had something to do with 
impacting students at Miami-Dade College, immediately my 
antennas went straight up because at Miami-Dade Community 
College, at Miami-Dade County, all across the county, I have 
more than 10,000 children enrolled that I personally sent to 
this college. So I know the difference, and I know what will 
happen when we do what we are supposed to do as a government to 
improve Miami-Dade even more.
    I know we cannot spread out anymore because there is no 
room downtown. But that Dyer Building is there for us, and we 
are going to make sure that we work closely with Mr. Smith. I 
had a meeting with him this morning about another issue up 
north with the FBI Building and the leasing of that, another 
property in my district, and a new FBI Building that is being 
built in my district at Miramar. So we have been getting 
acquainted on many levels.
    I just hope that with today's hearing we can say that GSA 
and Miami-Dade and the government can continue to work together 
until we find a resolution to this. It is going to be good for 
the community, it is good for the government, and to me it is a 
cost savings because the building is empty, and I am just 
wondering what will happen if we sell some of these properties 
and use that money to retrofit the Dyer Building for the use by 
Miami-Dade Community College.
    My heart is here with all of my children, and I send 1,000 
a year. They are coming constantly, and all of them are boys 
who ordinarily would not even have college in their portfolio. 
But with the help of this entire community, we have been able 
to send these young men to college, and we have some teaching 
here now, Dr. Padron, that you have hired. Yes, you know the 
5,000 Role Models project.
    Mr. Mica, this is something that this community is proud 
of, and Miami-Dade is in the heart of it with these young men. 
So it is a pleasure to have you here, and it is a pleasure--you 
can come as often as you want until we find a solution to this 
problem, because this is important to this community. Thank 
you.
    Mr. Mica. Well, thank you. The next time I plan to be here, 
I will be hopefully with the two representatives from South 
Florida as we cut a ribbon and this building has some useful 
purpose, with less cost to the taxpayers and it is not sitting 
idle. We are going to do it together, and I appreciate both of 
you coming for a few minutes and taking time out of your 
schedules to be with us.
    We have one representative of Mario Diaz-Balart's office. 
Ms. Cosio, are you here? I know Mr. Diaz-Balart could not be 
with us, but he sent his representative.
    Are there any other representatives from any of the other 
congressional offices? Senator Rubio's office? And your last 
name, for the record? Higgins, Ms. Higgins, Cruz Higgins. Well, 
thank you so much for the Senator and Congressman sending 
representatives today and for their interest and support, too.
    So with that, we also have Ms. Thomas with the minority.
    I am going to ask unanimous consent that we keep the record 
open for a period of two weeks for additional statements, if 
that is acceptable, Ms. Thomas. We want everyone on the 
committee and anyone else who has interest to submit questions. 
Also, we may have some additional questions we will submit to 
the witnesses. We do rather formal presentations in these 
hearings, and sometimes limited in time, but we can add to the 
record.
    So without objection, so ordered. The record is left open 
for a period of two weeks.
    With that, we have again our witnesses, our three witnesses 
today. We have Mr. John Smith, Regional Commissioner of the 
Public Building Service at the General Services Administration. 
I will recognize him first.
    Our order of recognition, gentlemen, we usually give you 
five minutes, and then, as I said, if you have additional 
lengthy statements, documents that you want made part of the 
record, just ask the Chair and we will comply with that.
    So with that, we will recognize first Mr. Smith of GSA. You 
are welcome and recognized.

                       WITNESS STATEMENTS

                    STATEMENT OF JOHN SMITH

    Mr. Smith. Thank you, Mr. Chairman. Good afternoon, 
Chairman Mica, Congressman Wilson, Congresswoman Ros-Lehtinen, 
and Congressman DeSantis. My name is John Smith. I am the 
Regional Commissioner for GSA's Public Building Service in the 
Southeast Sunbelt Region. Thank you for the opportunity to join 
you here today at Miami-Dade College to discuss the David W. 
Dyer Federal Building and U.S. Courthouse.
    Under new leadership, GSA has refocused on its mission of 
delivering the best value in real estate acquisition and 
technology services to the government and to the American 
people. To meet this mission, GSA is working with agencies 
across the government to improve utilization and reduce space 
requirements by effectively managing our assets and pursuing 
innovative real property proposals that will deliver better 
space to Federal agencies.
    GSA is one of more than two dozen major Federal landholding 
agencies. GSA manages just 9,600 of the more than 834,000 
buildings and structures reported in the Federal Real Property 
Profile. Of those 9,600, GSA's Southeast Sunbelt Region is 
responsible for approximately 1,600.
    We have a robust asset management program to track the 
utilization of our inventory, strategically invest in our 
assets where needed, and aggressively dispose of unneeded 
assets. As a result, we lead the market in our vacancy rates 
and utilization. In the Southeast Sunbelt Region, only 1.9 
percent of our portfolio is under-utilized.
    When we identify vacant space in areas where there is a 
continuing Federal need, GSA works aggressively to renovate and 
reuse the asset to greater achieve better utilization. We also 
work diligently to identify unneeded assets for disposal. Since 
2005, GSA has disposed of more than 300 of our own assets, 
generating proceeds of more than $116 million. In the Southeast 
Sunbelt Region alone, we have disposed of 20 GSA assets since 
2005, generating $20.3 million.
    In addition to managing our own inventory, GSA has the 
authority to dispose of most Federal real property government-
wide. In the last 10 years, GSA has disposed of more than 2,800 
assets. GSA Sunbelt Region has helped to dispose of more than 
300 of these.
    Today the committee has chosen to discuss the historic Dyer 
Courthouse, a property for which we are actively exploring 
repositioning strategies. The Dyer Courthouse was constructed 
in 1933 and listed in the National Register of Historic Places 
in 1983. The courts and court-related activities substantially 
occupied the building until the fall of 2008. In 2008, GSA 
completed construction of the new Wilkie D. Ferguson U.S. 
Courthouse, and tenants of the Dyer Building vacated to occupy 
the newly constructed Courthouse. At that time, the initial 
asset management strategy was to renovate and backfill the Dyer 
for purposes of lease cost avoidance and preservation of an 
historically significant asset, which is consistent with GSA's 
strategic preference for owned assets over continued leasing 
solutions.
    GSA's lease portfolio in Miami amounts to nearly 3 million 
square feet. However, GSA has since made a decision that in the 
absence of capital to renovate the facility, we will explore 
repositioning the Dyer Courthouse. GSA is currently exploring 
ways to do so. In August of 2012, we issued a request for 
information seeking ideas for redeveloping and preserving the 
property. We received interest from two sources, neither of 
which offered a viable option as proposed. However, we are 
happy to work with Miami-Dade College and the other respondent 
to see if there are ways to make their proposals more workable.
    Additionally, Miami-Dade College's proposal to get the 
property under a public benefit conveyance would require us to 
report this property excess. In light of that interest, we are 
currently preparing a due diligence for a report of excess 
while assessing other potential strategies for the building.
    Repositioning the courthouse will not be without 
challenges, the Atkins Courthouse next door and the Dyer share 
of the utility infrastructure, parking, mechanical systems and 
tunnels. The preliminary cost to separate and replace these 
connections exceeds $10 million. GSA is exploring all potential 
repositioning strategies, and we have engaged the public and 
private sector to find a strategy with the highest benefit to 
the taxpayer.
    We are pleased to see the interest from Miami-Dade College 
and look forward to working further with them. GSA is committed 
to carrying out its mission of delivering the best value in 
real estate acquisition and technology services to the 
government and to the American people. We continue working 
aggressively to manage our own assets while pursuing other 
innovative new processes to better utilize our inventory.
    The Southeast Sunbelt Region is pleased to assist with 
these efforts. We look forward to finding the best strategy to 
reposition this property and working with the committee to 
continue to utilize Federal real estate more effectively.
    I welcome the opportunity to be here, and I am happy to 
answer any questions.
    [Prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] 81525.001
    
    [GRAPHIC] [TIFF OMITTED] 81525.002
    
    [GRAPHIC] [TIFF OMITTED] 81525.003
    
    [GRAPHIC] [TIFF OMITTED] 81525.004
    
    Mr. Mica. Thank you, and we will hold questions until we 
have heard from all of the witnesses.
    I will next recognize John Smith. He is the Regional 
Commissioner of Public Buildings at the--I am sorry. We just 
finished with him, and certainly he has been recognized.
    But Mark Goldstein is Director of Physical Infrastructure 
Issues at the Government Accountability Office. He is our next 
witness, and we welcome him, and he is recognized. Thank you.

                 STATEMENT OF MARK L. GOLDSTEIN

    Mr. Goldstein. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, I am pleased to be here today to 
discuss our work on Federal courthouse construction and how it 
specifically relates to Miami, Florida. Since the early 1990s, 
the General Services Administration and the Federal Judiciary 
have undertaken a multibillion-dollar courthouse construction 
initiative that, to date, has resulted in 78 new courthouses or 
annexes, with 18 additional projects in various stages of 
development. This includes the Ferguson Courthouse, which was 
completed in 2008, at a cost of approximately $163 million. 
However, rising costs and other budget priorities have slowed 
the construction program.
    My testimony today discusses the Ferguson Courthouse and 
the other 32 Federal courthouses completed from 2000 to March 
2010, particularly whether the courthouses contain extra space 
and any costs related to that space, how the actual size of 
courthouses compare with the congressionally authorized size, 
how courthouse space based on the Judiciary's 10-year estimates 
of the number of judges compares with the actual number of 
judges, and whether the level of courtroom sharing supported by 
data from the Judiciary's 2008 Study of District Courtroom 
Sharing could have changed the amount of space needed in these 
courthouses. This testimony is primarily based on our June 2010 
report on this issue, updated and informed by our current work 
in this area.
    Our report and recent work have provided several findings. 
First, GAO found that the Ferguson Courthouse, along with the 
other 32 Federal courthouses completed since 2000, include 3.56 
million square feet of extra space consisting of space that was 
constructed above the congressionally authorized size due to 
overestimating the number of judges the courthouses would have 
and without planning for courtroom sharing among judges. 
Overall, this space represents about nine average-sized 
courthouses. The estimated cost to construct the space was 
approximately $835 million, and the annual cost to rent, 
operate and maintain it is $51 million.
    The Ferguson Courthouse specifically included approximately 
238,000 extra square feet of space, which we estimated 
increased the construction costs by $48.5 million in constant 
2010 dollars, and an additional $3.5 million annually.
    Second, the Ferguson Courthouse, along with 26 others 
completed since 2000, exceed their congressionally authorized 
size by a total of 1.7 million square feet. Specifically, the 
Ferguson Courthouse exceeded its authorized size by 97,000 
square feet due to judiciary and common spaces that were larger 
than planned. For example, the 16 courtrooms in the Ferguson 
Courthouse exceed Judiciary standards by between 7 to 17 
percent. GSA did not explain to its oversight committees that 
the courthouses were larger than authorized and did not 
attribute any of the cost increase to this difference. However, 
there is no statutory requirement for GSA to notify Congress, 
its authorizing or its appropriating committees, if the size 
exceeds the authorized square footage.
    Third, the Ferguson Courthouse, along with 22 of the 28 
courthouses whose space planning occurred at least 10 years 
ago, has fewer judges than were estimated. The Judiciary 
overestimated the number of judges that would be located in 
these courthouses, causing them to be approximately 887,000 
square feet larger than necessary, resulting in unnecessary 
construction and operating costs.
    In the Ferguson Courthouse, the Judiciary estimated in 2000 
that it would have 33 judges in Miami by 2010; it had 27 at the 
time of our report. This resulted in 57,000 extra square feet 
of space, including several courtrooms that were never 
finished.
    Fourth, using the Judiciary's own data, GAO designed a 
model for courtroom sharing which shows that there is enough 
unscheduled courtroom time for substantial courtroom sharing. 
Sharing could have reduced the number of courtrooms needed in 
the Ferguson Courthouse and the other 21 courthouses built from 
2002 to 2010 by 126 courtrooms, which is about 40 percent of 
the total courtrooms constructed since 2000. It covers about 
946,000 square feet. In Miami, we found that courtroom sharing 
would have allowed a reduction of 12 courtrooms covering 83,000 
square feet.
    This raises questions about whether the Ferguson Building 
needed to be constructed at all. Based on the number of judges 
located in Miami, the Judiciary would only need 17 courtrooms 
based on our sharing model, and there were already 29 
courtrooms in the Judiciary's existing buildings before 
Ferguson.
    In our 2010 report, GAO recommended that GSA should 
establish controls to help ensure courtrooms remain within 
their authorized size and that the Judiciary should improve its 
estimation of future judgeships and expand courtroom sharing 
policies.
    Neither the GSA nor the Judiciary fully agreed with our 
recommendations, although some of these recommendations have 
been implemented.
    Mr. Chairman, this concludes my testimony. I would be happy 
to respond to questions the subcommittee may have. Thank you.
    [Prepared statement of Mr. Goldstein follows:]
    [GRAPHIC] [TIFF OMITTED] 81525.005
    
    [GRAPHIC] [TIFF OMITTED] 81525.006
    
    [GRAPHIC] [TIFF OMITTED] 81525.007
    
    [GRAPHIC] [TIFF OMITTED] 81525.008
    
    [GRAPHIC] [TIFF OMITTED] 81525.009
    
    [GRAPHIC] [TIFF OMITTED] 81525.010
    
    [GRAPHIC] [TIFF OMITTED] 81525.011
    
    [GRAPHIC] [TIFF OMITTED] 81525.012
    
    [GRAPHIC] [TIFF OMITTED] 81525.013
    
    [GRAPHIC] [TIFF OMITTED] 81525.014
    
    [GRAPHIC] [TIFF OMITTED] 81525.015
    
    [GRAPHIC] [TIFF OMITTED] 81525.016
    
    [GRAPHIC] [TIFF OMITTED] 81525.017
    
    [GRAPHIC] [TIFF OMITTED] 81525.018
    
    [GRAPHIC] [TIFF OMITTED] 81525.019
    
    Mr. Mica. Thank you, Mr. Goldstein.
    Now I will recognize Dr. Padron, who is President of Miami-
Dade College.
    Welcome. Thank you again, Dr. Padron, for hosting us today. 
Now I would like to recognize you for your testimony.

                 STATEMENT OF EDUARDO J. PADRON

    Mr. Padron. Thank you, Mr. Chairman.
    Mr. Mica. You might pull that up as close as you can.
    Mr. Padron. Thank you, Mr. Chairman. I am also happy to 
welcome Representative Wilson, a good friend of the college. 
And welcome to Miami-Dade College. Thank you for the 
opportunity to present these remarks.
    Miami-Dade College is the nation's largest institution of 
higher education, welcoming more than 175,000 students every 
year. Our commitment to provide access to college-level 
learning throughout our community reflects the workforce 
demands of a dynamic economic environment. The college's growth 
dictates that we explore creative approaches, form 
partnerships, and follow up on every opportunity. This includes 
challenging ones like the Dyer Courthouse located adjacent to 
our main building.
    Miami-Dade College supports Congress' efforts to seek the 
efficient utilization of federally owned vacant properties. As 
you look into streamlining the Federal property disposal 
process, I believe Miami-Dade College can serve as a model 
demonstrating the important contribution the educational sector 
can make to your efforts. This college already has a track 
record of successfully conveying underutilized properties and 
restoring historic buildings. They have become centers of 
learning and hosted important gatherings for the benefit of our 
entire community.
    One such successful example of this commitment sits 
adjacent to our campus, the Freedom Tower, designated as a 
national historic landmark by the U.S. Department of Interior. 
This building is recognized as the Ellis Island of the South. 
It has served as a Federal processing center for Cuban refugees 
in the 1960s and '70s, including yours truly. The Freedom Tower 
is flourishing today as an educational and cultural hub. It is 
a significant anchor in the economic revitalization of urban 
Miami.
    Given the chance, this is the type of future we envision 
for the Dyer Courthouse. Before I address that issue, allow me 
to briefly relate an additional success story that is even more 
pertinent to our discussion. It is federally owned property 
conveyed to the college in 2009. This property, a fenced-in 
downtown parking lot, currently served the Bureau of Prisons 
and Department of Justice employees. It is adjacent to the 
Miami-Dade College New World School of the Arts.
    Several years ago, we began meeting with the Bureau of 
Prisons to explore our interest in this property. In developing 
plans for a new structure for the property, we were able to 
combine the Bureau's need for secure parking with our need to 
expand capacity. Working with them and alongside our 
congressional delegation, we obtained conveyance legislation. 
It was approved by Congress and signed by the president in a 
timely manner.
    Today we are finishing the design plans for the new 
building. We anticipate a groundbreaking ceremony in the very 
near future.
    Mr. Chairman, these Federal partners were willing to work 
with us. The process was efficient and accomplished without 
time-consuming layers of review and unnecessary delays. Upon 
completion, this building will represent the result of a model 
Federal-local partnership. Much like the Freedom Tower, it will 
suggest the future that awaits the Dyer Building, if we are 
given the chance.
    I am aware that efforts to improve government efficiency 
and generate revenue for the Treasury are important elements of 
an effective Federal disposal process. However, focusing on 
maximizing fair market sales should not be your only option. In 
many cases, the cost of bringing a property to market exceeds 
the proceeds from the sale. The option of maximizing a fair 
market value sale should be weighed against the value of a 
public benefit conveyance. The end result will be better 
utilization of these Federal properties to the benefit of our 
communities and nation.
    This community benefit can be quantified. Miami-Dade 
College's Commission on Economic Impact study by Economic 
Modeling Specialists, Inc., its findings indicated Miami-Dade 
College to be a sound investment from multiple perspectives. 
The findings of this economic impact study underscore the 
benefits to taxpayers should the Dyer Building become part of 
the college.
    Written remarks submitted to the subcommittee contain other 
details from the economic impact study.
    Lastly, it is important for me to note that the college is 
working with the GSA. We have responded to a request for 
information, sharing our plans and vision for the Dyer 
Building. We have been meeting with GSA representatives as we 
await their internal review process, a process that is inching 
forward. We have invited the GSA administrator to visit our 
downtown campus, including the Freedom Tower.
    Mr. Chairman, we will continue to communicate with this 
agency, our congressional delegation, with all of you on this 
committee. We have also reached out to our community and 
received several expressions of support for our plan. We have 
received support from the Dade Heritage Trust, which 
underscores our commitment to preserving the legacy of this 
building. We have also received a resolution of support from 
the Downtown Development Authority, recognizing the positive 
impact on Miami's economy. In addition, we have received 
letters of support from Chief Judge Federico Moreno, the chief 
judge of the court in Miami. All these documents are here 
today, and I request that they become part of the official 
record.
    Our message is simple. Miami-Dade College sees great 
potential in conveying the Dyer Building into an educational 
and cultural center. We propose a new chapter for this historic 
building that will be rich in promise for all. We hope our 
Federal partners will give us that chance. Thank you very much.
    [Prepared statement of Mr. Padron follows:]
    [GRAPHIC] [TIFF OMITTED] 81525.020
    
    [GRAPHIC] [TIFF OMITTED] 81525.021
    
    [GRAPHIC] [TIFF OMITTED] 81525.022
    
    [GRAPHIC] [TIFF OMITTED] 81525.023
    
    [GRAPHIC] [TIFF OMITTED] 81525.024
    
    [GRAPHIC] [TIFF OMITTED] 81525.025
    
    [GRAPHIC] [TIFF OMITTED] 81525.026
    
    [GRAPHIC] [TIFF OMITTED] 81525.027
    
    Mr. Mica. Well, thank you, and I thank each of our 
witnesses for your participation and your testimony. As I said, 
if you have additional statements, we will make them part of 
the record.
    Let me first turn to Mr. Smith with the GSA. We will start 
some questions here.
    Mr. Smith, I was surprised after the last hearing in August 
to hear that the community college, Miami-Dade, I guess at that 
time was Miami College, Miami-Dade College, had been in contact 
with GSA about utilization of this building. Do you know how 
far back that goes?
    Mr. Smith. I do not.
    Mr. Mica. Dr. Padron, when was your first contact with GSA 
or the government in regard to this building, the Dyer 
Building?
    Mr. Padron. Mr. Chairman, I will have to rely on my 
assistant for that specific information, and if they don't have 
it, I will make sure you get it.
    Mr. Mica. Was it prior to the hearing in August?
    Mr. Padron. That is my understanding, of course, yes.
    Mr. Mica. Yes. Okay. Most recently, according to testimony 
here today, there have been discussions ongoing about possible 
acquisition of the property by the community college or by 
Miami-Dade College. How long do you anticipate these 
discussions to take, and on what basis would you evaluate it? 
Have you seen their proposal?
    Mr. Smith. Sir, we saw their response to the RFI, which 
requested the property through a public benefit conveyance. In 
order to get through that process, we have to put it into the 
disposal process, which means we have to report it excess, do 
the due diligence. There is an application under the process 
where the Department of the Interior is the sponsoring agency 
for that. The college would work with them. Their application 
was very complete, and it looks as though they have experience 
working with the Department of the Interior.
    Mr. Mica. I think he outlined also some conveyances that 
have successfully been executed. But I am trying to get some 
handle on time frame. When would you finish yours if Interior 
needs to get in? You know, I did the last hearing in August, 
and this is March. Any time frame?
    Mr. Smith. We are in the middle of the due diligence now, 
and I was told today that we have an environmental assessment 
starting on Thursday. We have to still do a survey, work with 
the State Historic Preservation Office to outline the covenants 
and restrictions that we would move forward, no matter how we 
dispose of that property.
    Mr. Mica. But again, what I want to envision is that by 
June or six months, I don't know, from this date, what is going 
to happen in what sequence? We want to be able to hold GSA 
accountable for movement. I mean, it is costing $1.2 million. 
We are up to $6 million I am told by staff, and the building 
continues to deteriorate, which also has a value. So I am 
trying to get some time frame on this. Can you be more 
specific?
    Mr. Smith. We don't control all of the processes.
    Mr. Mica. But the part that you control, tell me.
    Mr. Smith. We control the screening process initially. Once 
it is determined excess, we would have to screen it for 
homeless use and then for Federal ----
    Mr. Mica. So once you have the environmental--and how long 
will that take?
    Mr. Smith. I don't have a definite date on that.
    Mr. Mica. Can you supply the committee with that 
information?
    Mr. Smith. We can provide you the information. We have 
already contracted for that. We would have to contract for a 
survey, and it may take 30 to 60 days.
    Mr. Mica. Nobody knows the time frame that the survey would 
take?
    Mr. Smith. The survey could take--it should be pretty 
quickly. The contracting leading up to it is what takes the 
time.
    Mr. Mica. Okay.
    Mr. Goldstein. Mr. Chairman?
    Mr. Mica. Mr. Goldstein?
    Mr. Goldstein. Just one item. The GAO several years ago 
issued a report on public benefit conveyances in which we 
listed quite a number of them that were very successful. We 
outlined what the process was that you go through, and a number 
of them, in fact, were successful to educational purposes. I 
would, if you wish, sir, make that part of the record for your 
committee or provide that to you.
    Mr. Mica. I think that would be helpful. So there is sort 
of a guideline already established?
    Mr. Goldstein. We would be happy to.
    Mr. Mica. All right. Thank you for advising the committee 
of that.
    Again, Mr. Smith, what we are trying to do is figure out 
how long this is going to take or if we can expedite it. If 
Congress passes legislation, directive legislation, can we 
leapfrog some of that? As you know, that would be the law.
    Mr. Smith. Sir, we will follow the law. It depends on what 
the law says. In some cases, we still are required ----
    Mr. Mica. Well, again, you want certain covenants that this 
is an historic property. In talking to the college, it appears 
that they have acquired property before. They obviously have 
been good stewards and have complied with the requirements of 
acquiring private property, I mean public property in the past 
that has, again, been conveyed to another public entity. So 
that is doable.
    Any guesstimate as to how long before if we can, again, 
provide something directive, that you can complete your part of 
the paperwork or requirements? A year? Six months? Two years?
    Mr. Smith. I can give you an example of Thomasville, 
Georgia, where we recently conveyed a piece of property to the 
Board of Education at Thomasville.
    Mr. Mica. Okay.
    Mr. Smith. It is still occupied by a post office, and it 
was a U.S. Post Office and Federal Building. It started back in 
2010 when we first got an application for that. It went through 
the disposal process rather quickly. We moved the last tenant 
out in 2011, and I believe early last year, probably March or 
April, we had a conveyance. So this should not drag on forever. 
But what I don't have ----
    Mr. Mica. Okay. Are the figures that are being given to the 
committee about $1.2 million and about $6 million incurred so 
far just to maintain the empty building, is that correct?
    Mr. Smith. I would have to check with my staff. Most of it 
is utility bills. We don't have a cleaning contractor any 
longer.
    Mr. Mica. We are told it has cost us about $6 million to 
keep it vacant to date. That is the information provided to the 
committee.
    Well, wait a second. We can't do that.
    Mr. Smith. You are telling me it is less than that.
    Sir, we will get back to you with those correct figures.
    Mr. Mica. I would like the exact information for the 
record, but we are told it is approaching $6 million.
    [The information follows:]
    Mr. Mica. The thing that is amazing about this to me, and I 
think we discussed this in August, is it just didn't happen 
that this building was going to become vacant. They were 
actually building a courthouse next door. We knew a new 
courthouse would be built. We knew that judges would be moving 
from this, and we knew that this property would be vacated, did 
we not, Mr. Smith?
    Mr. Smith. Yes, Sir. As a matter of fact ----
    Mr. Mica. We knew it, but we never had a plan. Of course, 
there ought to be some way to get some interest either from the 
private sector or from public entities, and certainly it would 
behoove the Federal Government to work with public entities 
that have an interest in a public building for doing something 
with it. Once the door closed in 2007 and they went into the 
other building in 2008, it is five years later, the building is 
empty, and now my next question is I am told it is tens of 
millions of dollars probably to clean up the mold and some of 
the other damage that has been done by the property sitting 
vacant. Is that correct?
    Mr. Smith. There would be a cleanup cost, but I need to 
correct you on the plan, sir. In 2006 we submitted a request 
for design, and I believe, I am told that in 2007 we actually 
received authorization for design. So the plan was always to 
back fill this building with Federal tenants.
    Mr. Mica. And what happened there?
    Mr. Smith. We didn't receive the appropriation for that.
    Mr. Mica. And what happened there?
    Mr. Smith. Say again?
    Mr. Mica. What happened there?
    Mr. Smith. Well, all we received was authorization for 
design.
    Mr. Mica. It wasn't Federal judges because we have the GAO 
representative here. They overbuilt this. Not only is this a 
disaster, a taxpayer fiasco as far as the empty Dyer Federal 
Building, but the building they built. The GAO just testified 
they overbuilt the building. There is vacant space that has 
never even been built out.
    Was it your estimate, Mr. Goldstein, is this 57,000 extra 
square feet, or more?
    Mr. Goldstein. The extra square feet in Ferguson is 278,000 
in three different categories, sir.
    Mr. Mica. The total is how much?
    Mr. Goldstein. 278,000.
    Mr. Mica. Oh, my God. So we overbuilt. We have a vacant 
building. We will probably have to put utilities in part of 
that anyway, which is extra cost that we have incurred for at 
least five years. We have courtrooms that don't have judges, 
and we have an empty courthouse costing us millions of dollars 
to keep empty.
    Dr. Padron, do you think the community college--I am sorry. 
I keep saying community college. You have to forgive me because 
that was the title for so long. Miami-Dade College. Do you 
believe, if you acquired this building, if we could convey it, 
that you could convert the building without difficulty to your 
use for the college?
    Mr. Padron. Absolutely, Mr. Chairman. We wouldn't be 
pursuing this if we didn't feel that way. We have a tremendous 
need for space for the college for many of our programs. We 
keep growing. This is a very large campus, and we feel that 
that building, which is probably the most beautiful building 
architecturally in Miami and an iconic building, a historic 
designation, we feel that we can put it to a use that will 
welcome the community into it, that will serve the purposes of 
educating students, and that will complete a lot of the 
facilities that we need in order to serve the community down 
here.
    Mr. Mica. All right. And I have some additional questions. 
I want to yield right now to Ms. Wilson for questions. You are 
recognized.
    Ms. Wilson. Thank you, Mr. Chair. This particular issue 
means a lot to me personally, and it actually means a lot to 
this community. So I was happy to hear GSA give us a rundown on 
what has been happening and what we can expect to happen. I 
think Dr. Padron has given me some peace when he said that he 
is working with the Dade Heritage Trust and the Historical 
Society and the Downtown Development Authority and any other 
organizations that we feel can make this a reality, because it 
is important that we do this, and it is important that we make 
sure that it is not repositioned in a way that we lose it. We 
want this building to be ours and not for some other entity in 
the process.
    So I would like to get the assurance from GSA that Miami-
Dade College is the preferred tenant of this building as far as 
GSA is concerned in your repositioning for new tenants and 
moving. Can we say that we are a priority?
    Mr. Smith. Ma'am, we look forward to working with the 
college to resolve some of the issues that we have. But at this 
stage, we still have to go through a process. And while the 
college is amply prepared to be in line, we cannot prefer a 
type of disposal at this stage. But we do need to repurpose it 
so that it benefits the local community. That is one of the 
actions we look at. We also have to make sure that we extract 
the highest return for the government and the taxpayer, and 
should that be for historic monument or education or for any 
other public benefit conveyance, we will have to work with 
other sponsoring agencies to see how that process works out.
    But we do look forward to working with the college. They 
have proven that they are problem solvers, that they can work 
with the Federal Government through the labyrinth of 
regulations and laws that we must comply with, and I think it 
would be a very good partnership if we can continue to make 
those arrangements, to talk to each other and see how we can 
resolve some of these unique issues with the Dyer Courthouse.
    Ms. Wilson. And just the track record of Miami-Dade is 
commendable. Dr. Padron is known internationally for what he 
has done here in this community with this college, and I am 
looking forward to everyone else from GSA to come down so that 
they can see it.
    So, even though this might not be legal or is not something 
that is lawful, that when they come, in their minds they will 
leave here saying we have to find a way to get this done 
because it is good for this community and it is good for 
thousands and thousands of children who are going to be 
citizens, who are going to be running this community in the 
future.
    So this is not a shelter for the homeless. This is not a 
post office. This is something that is going to be the 
betterment of this entire community and generations yet unborn 
who will take advantage of a historical building that needs to 
be preserved, according to everybody who has seen it. I think 
we need to find a way that we can put it in some sort of 
priority order.
    And with that, I am going to excuse myself. Thank you so 
much.
    Mr. Mica. Thank you also for having us in your new district 
and the great relationship you have with the college. I know 
that will continue. We are going to work with you until this is 
resolved.
    It would be my preference, again, since Miami-Dade needs 
this extra space, and it is a beautiful space. We had an 
opportunity to tour it again. It could be very conducive to use 
for a student population that is growing. Also, I am sure you 
have some judicial programs. This is some incredible courtroom 
space, and historic too, that does need to be preserved. So we 
will work with you, and thank you so much, and the rest of the 
delegation, for your interest and support.
    Let me go back to some of the questions that I had. We are 
covering today the Dyer Courthouse, and that seems to be sort 
of one of the tips of the iceberg. We had the Ferguson 
Courthouse built, a pretty expensive building, and it had, as 
you just told me before Ms. Wilson intervened, 250,000 extra 
square feet that were constructed ----
    Mr. Goldstein. Two-hundred seventy-eight thousand, sir.
    Mr. Mica. Oh, I am sorry. I keep getting the number wrong. 
Two-hundred seventy-eight thousand square feet. And what was 
the estimated extra cost to the taxpayer?
    Mr. Goldstein. $48.5 million, sir.
    Mr. Mica. $48.5 million. So we spent $48.5 million, and we 
have extra space over there. Do you know how much the 
unfinished space is?
    Mr. Goldstein. The size of the two courtrooms? There are 
two courtrooms that have never been finished at all, but there 
are several others, of course, that are vacant, that are not 
filled because of not having enough judges.
    Mr. Mica. So there is plenty of future space in the 
Ferguson Courthouse.
    Mr. Goldstein. Yes, sir. There are several floors. I have 
toured the building myself. There are several floors that are 
used, quite honestly, very inefficiently, one entire floor that 
is just a massive library that is almost never used, as well as 
a conference room that is used less than once a month, and 
those are the only two things on that floor.
    There are other similar spaces in the building that are 
very inefficiently used--I am sure you have been there 
yourself--the whole area in which jury assembly occurs and the 
multi-floor atrium of elevators used to achieve rising to the 
upper floors. There was quite a lot of very inefficient space. 
The atriums themselves contributed a lot to that overage.
    The extra space comes in three categories, sir, that 
278,000 feet of extra space I am talking about. Ninety-seven 
thousand square feet of space was built about the authorization 
level that Congress provided, 57,000 square feet was as a 
result of poorly projecting the number of judges that would be 
in place and needing courtrooms at the end of the 10-year time 
frame, and 83,000 square feet was as a result of the judges in 
that particular building deciding that they would not share. As 
you know, part of GAO's work has been to develop a model based 
on the Judiciary's own data about how judges at the District 
Court level could share effectively.
    Mr. Mica. So somebody has to be responsible if you build 
almost 100,000 square feet of space more than Congress 
authorized. Who would be the responsible party there?
    Mr. Goldstein. That, sir, is mainly at GSA, because that 
space for the most part, GSA is responsible for building the 
building. They are the ones who control the architects. The GSA 
had its own space policy in place, but it did not follow it.
    Mr. Mica. In a couple of months I intend to convene another 
hearing in Washington to focus on a report that the GAO is 
working on. I think it is close to completion. It is entitled 
``The Judiciary's Capital Planning Process For New 
Courthouses.'' Mr. Goldstein, can you tell me the focus? I 
don't know how far along you are in the report, the focus of 
that report. Is what we are seeing here in Miami as far as 
courthouses that are built that we don't need and spaces that 
far exceed what Congress may have appropriated for purposes of 
heaven knows what, because they are not being used, and then 
leaving a vacant space behind, is this just happening in Miami, 
or what will this report show?
    Mr. Goldstein. We are working on two reports I think that 
will be of interest to you, sir. One is the one you mentioned 
on the five-year capital plan. That will be available to the 
public in May. The second one I think is actually a little more 
on target with the question you have just asked, and that is 
looking at what is happening with the older courthouses in 
America when the Judiciary decides ----
    Mr. Mica. Are they both on schedule to be presented to 
Congress?
    Mr. Goldstein. Yes, the one in May. The second one that I'm 
just mentioning is in the fall, not until the fall.
    Mr. Mica. Oh, okay.
    Mr. Goldstein. And that will look at the status of older 
courthouses like Dyer once the Judiciary has built newer space.
    Mr. Mica. All right. Let's go back to some of the 
underlying problem that GSA builds a courthouse, and I think 
some of the criteria by which you build a courthouse is the 
information provided to you by the potential tenant, in this 
case the judges. Now, they had one criteria by which they 
assessed the amount of space that would be needed in a 
facility, which I guess was the number of judges, current and 
projected, and then I am told now that that may have been 
changed because, as we heard Mr. Goldstein say, there is now a 
sharing space initiative, I don't know how far along.
    What criteria did you use, do you know, Mr. Smith? What are 
you using, so we won't have this costly fiasco of over-building 
and under-utilization?
    Mr. Smith. Sir, I was not in place for the design or 
building of this courthouse. But you are correct that we get a 
program of requirements from the courts.
    Mr. Mica. And do you know what is in place now? Is it based 
on number of judges and projected judges? Is it based on this 
new model of what space they would actually need if they used 
some commonsense sharing?
    Mr. Smith. For future courtrooms or courthouses, we do have 
courtroom sharing, and that is mandatory.
    Mr. Mica. That is the criteria that you are using? You are 
no longer using, again, the defunct method by which we got the 
Ferguson--I was going to say ``monster''--the Ferguson monster 
to the taxpayers? Maybe it is a nice building and all that but 
----
    Mr. Smith. To my knowledge, courtroom sharing is our 
standard now. There should be a formula for it. We don't have 
much of a construction program right now.
    Mr. Mica. Have you looked at this, GAO? Tell me what your 
take is.
    Mr. Goldstein. Sure. Mr. Chairman, the report that we are 
going to be issuing to the public in May about the five-year 
capital plan will discuss the criteria that the Judiciary has 
developed over the last couple of years. They have changed 
their planning process. Certain things are not part of it 
anymore, but they have a more elaborate approach that they do 
use, and we will be presenting the findings of that report in 
May.
    The traditional use of caseload projections and judgeship 
numbers that derive from those caseload projections, which GAO 
criticized a number of years ago, is a much smaller factor 
today than it was in the past.
    Mr. Mica. Back to some of your testimony, Mr. Smith. You 
talked about the savings on space, disposing of excess space or 
properties. Can you cite again--I guess you were talking about 
the Southern District. What area does that encompass?
    Mr. Smith. The Southeast Sunbelt Region.
    Mr. Mica. Southeast Sunbelt. How many states?
    Mr. Smith. The Southeast Sunbelt Region is eight states, 
Kentucky, Tennessee, North Carolina, South Carolina, Georgia, 
Florida, Mississippi and Alabama.
    Mr. Mica. And there was an estimate of how much, how many 
vacant properties or buildings. Over 200 was it?
    Mr. Smith. In our region, we have one property that is 
under-utilized, and that is over in Columbia. It is the VA 
building.
    Mr. Mica. In the entire region?
    Mr. Smith. In our region.
    Mr. Mica. And nationally, though, I think there were 200 
that were identified. Are you aware of those? I thought you 
spoke to those in your testimony.
    Mr. Smith. Nationally, on the list that is under-utilized 
within GSA, I think we have 124. I don't know that that was in 
my testimony.
    Mr. Mica. And I thought you also gave us--from 2005, was it 
your region, I hope it wasn't nationally, that we realized 
$20.3 million from properties that were disposed?
    Mr. Smith. Those were only PBS properties within our 
region. The national inventory ----
    Mr. Mica. From 2005 to 2011 or 2012, the total?
    Mr. Smith. Right. Those are the sales that we have done. We 
also have had a number of public benefit conveyances.
    Mr. Mica. But the sales, $20 million. I mean, I did that 
yesterday on the old power station in Georgetown.
    Mr. Smith. Well, sir, this does not include all of the 
actions that we took. Those were only the buildings that we 
brought to public sale. Some very valuable buildings actually 
go--like the Dyer building is an extremely valuable building. 
It could go for a public benefit conveyance, in which case we 
would not count it in the $20.3 million.
    Mr. Mica. Dr. Padron, the building I talked about, I did a 
hearing in Washington at the vacant power station building 
behind the Ritz Carlton on some pretty valuable real estate. It 
sat there for 10 years in Georgetown, downtown Washington. They 
put that up for a public auction, an online auction I believe 
it was, and that was I believe sold this week for around $19+ 
million.
    If we can't get the conveyance, I don't know the 
community's backing for this or the college's resources. Of 
course, you are an entity of the state of Florida. There also 
would be considerable cost to separate the utilities. 
Certainly, you could also work out a utility sharing agreement, 
because I looked at some of the utilities equipment and it has 
been upgraded and it looks like a very viable system serving 
both of the units. But that could be done.
    So I guess a two-part question. I guess your first 
preference would be a conveyance?
    Mr. Padron. Absolutely.
    Mr. Mica. And then secondly, you feel that you could assume 
taking the building in its current condition and being 
responsible for its upgrade?
    Also, is it possible, Mr. Smith, to keep the title and work 
out some sort of an arrangement with the community and the 
college for them to acquire the property, at least for 
utilization?
    Mr. Smith. For an interim use, or a long-term lease?
    Mr. Mica. Well, a 99-year lease. I don't know. So far we 
are up to five years, and it's got to be $5 or $6 million. The 
thing is sitting vacant. We are incurring costs on a vacant 
building that is substantial. Again, the clock is ticking and 
it is costing the taxpayers a lot of lost revenue, in my 
opinion.
    Can something be done? I mean, is there any creativity at 
all in GSA, or do you lack flexibility because of the law? Is 
there something we need to do? I want to take full 
responsibility if Congress is tying your hands or the law 
doesn't allow you the flexibility you need. Speak now or 
forever hold your peace, as they say.
    Mr. Smith. Sir, I think we have the flexibility. We just 
need to make the right arrangements.
    Mr. Mica. You do. Yes.
    Mr. Smith. And I don't know the exact details of it, but 
the college is obviously very savvy at working these, and if we 
can sit down ----
    Mr. Mica. It sounds like they have already done this. I 
mean, they could practically write the primer on this, but the 
problem is nothing happens.
    I love Miami. I love coming back here. I enjoyed being here 
to do the other hearing. But now this is March, and we want to 
see something happen.
    So I am going to ask the staff, too, let's get from GSA a 
time frame of what is required for them to accomplish to get 
this done, either a transfer conveyance and some sort of a 
chronological order, that is one; or two, if they are not going 
to be able to convey it or don't feel they have the authority 
and Congress doesn't want to grant it if we have to, then do we 
put it up on the market and we stop the bleeding.
    But right now we are closing essential services across the 
country as I am sitting here. There are government services 
being shut down because we are almost bankrupt. I have this 
property. We have done four properties so far, probably just 
$100 million. That is peanuts, I guess, when you are sinking in 
trillions, but that adds up to billions. If we have 13,995 
other vacant properties or buildings or under-utilized assets, 
that must add up to some real money.
    We haven't gotten to the 7,000 acres and 500 buildings in 
Beltsville, Maryland on the periphery of the capital that we 
visited about two weeks ago. But no one has a plan. I was the 
first member of Congress I think to show up, except for the 
local members, since probably 1932 on the property and say what 
is the plan, what are you doing with this.
    Do you see this repeated throughout--well, you just have 
the South, Mr. Smith. Do you see this repeated across the 
country and in the territory that you have?
    Mr. Smith. Well, sir, we are responsible for the PBS 
properties. In my testimony we talked about 834,000 buildings 
with 26 landholding agencies. The GSA has about 9,600 of those
    Mr. Mica. Right.
    Mr. Smith. I have about 1,600 of those.
    Mr. Mica. You don't have the Agricultural Research Service 
in your region?
    Mr. Smith. They are in our region, but we don't manage 
those properties.
    Mr. Mica. Tomorrow I am going to visit 200 acres in front 
of a resort. I am from Miami. I never knew we had that 
property. But I was told we have over 200 Agricultural Research 
Service Centers across the country, a lot of them dating back 
to the 1930s, and some pretty valuable property and assets. You 
can imagine the 7,000 acres, the 7,000 acres in Beltsville, 
Maryland. Seven thousand acres is larger than the city of Key 
West. Again, we had pictures at our hearing in Washington of 
office buildings with vines growing over them. We had broken-
out windows, just vacant structure after structure. We are the 
trustees for the public and letting that occur. That is just 
not acceptable.
    So my question to you is you believe you have the authority 
to dispose, but somebody has to make a decision; is that 
correct?
    Mr. Smith. We have a process to follow, and some of it is 
due diligence, part of it is working with other sponsoring 
agencies.
    Mr. Mica. Do you see anything in that process that we could 
revise that would expedite this? I mean, this one is five 
years, clock ticking, two years before some plans being made, 
but everything being trashed because nothing is being done, 
right? Yes. I mean, that is the facts.
    Mr. Smith. If I had my druthers and I didn't take my 
opportunity a minute ago, sir, I would ask for $60 million to 
repurpose it for government because we have ----
    Mr. Mica. Do we have any other vacant space down here?
    Mr. Smith. We don't have much vacant space. We have 3 
million square feet of lease space.
    Mr. Mica. Do you include the postal facilities?
    Mr. Smith. We don't.
    Mr. Mica. No, you don't, and that is another one in DOD, 
and we do. So we are going to be looking at those too, because 
I can show you even in my district up in Central Florida, where 
I don't have any Federal buildings, postal buildings that are 
under-utilized or vacant, and some DOD property. So we have 
assets sitting idle, not utilized. But nobody makes a decision. 
That is part of this process. Mr. Denham and I crafted 
legislation to create a BRAC-like process so somebody could 
make a decision, and that did not pass. But we are looking at 
that, and we are looking at some revisions.
    But again, my question is if there is anything, even if you 
don't want to put it in public testimony today, that you could 
provide to the committee that would provide you with the tools 
to better do this job. And I love Mr. Goldstein, he is great, 
but he is sort of like--I saw the forensic school down here. 
You know, he is looking at the corpses and the body and the 
scene of the crime and reporting on it, and it is much too late 
with Mr. Goldstein. I love Mr. Goldstein, I love GAO and what 
they do. They do a great job for our committee and the various 
committees. But again, they are reporting the carnage.
    Mr. Goldstein. We kick a lot of dead horses.
    Mr. Mica. Yes, exactly. What I am trying to do when we do 
these, and if I have to come again, maybe next time I will have 
to chain myself to the door of the Dyer Building to get some 
attention or something, but we are going to find a way.
    This could be our third victory, Dr. Padron, small 
victories, but we're going to figure out some way to do this. 
So again, Dr. Padron, you are willing to take this on, right?
    Mr. Padron. Absolutely.
    Mr. Mica. Accept conveyance. You are willing to assume 
responsibility for the cleanup, fix-up and utilization, right? 
You are willing to work out some arrangements for utilities. Of 
course, you will probably find the most expensive solution 
dealing with the Federal Government on that. God forbid we 
should share anything. And then would you even consider a long-
term lease if the Federal Government had to take it back in the 
future so that could be done too?
    Mr. Padron. The first thing is an absolute yes. The last 
one, I will have to check on that.
    Mr. Mica. Okay.
    Mr. Padron. The problem that we have is some state 
regulations in terms of investing in properties that we don't 
own. But that is definitely something we can look at.
    Mr. Mica. All right. Well, we want to explore all 
possibilities.
    Mr. Padron. Absolutely.
    Mr. Mica. If worse comes to worst and we can't get it for 
Miami-Dade College, then we have to get this off the taxpayer 
deficit column, out of the deficit column and into a productive 
column.
    Mr. Goldstein, we look forward to seeing you in Washington 
with a May and a fall report.
    Let me just check through this for a second here.
    On June 10, 2010, President Obama issued a memorandum 
entitled ``Disposing of Unneeded Federal Real Estate,'' which 
directed the Office of Budget and Management to work with 
agencies to produce no less than $3 billion in cost savings by 
the end of fiscal year 2012.
    I am going to ask Mr. Goldstein first if you know where we 
are in this. Do you have any idea? Then I will ask Mr. Smith 
from GSA.
    Mr. Goldstein. I personally don't, sir. I think GAO has 
done some work in this area. I would be happy to provide some 
information for the record.
    Mr. Mica. Could you provide that to the committee?
    Mr. Goldstein. Be happy to.
    Mr. Mica. We passed 2012. We are supposed to have $3 
billion in savings, as Mr. Smith reported. Since 2005, in this 
region, we have actually realized $20 million.
    Mr. Smith. $20 million in sales, and we don't count the 
amount of property that we give up to a 100 percent discount.
    Mr. Mica. But we have a long way to go for the whole 
country for $3 billion. All right. And do you have any 
indication the whole GSA-wide for savings?
    Mr. Smith. In my written testimony on page 2, it does say 
that the initiative is on track to be published online next 
month. I believe the OMB website will have the accumulation of 
those sales, and I think it may be by agency, the actions that 
were taken under the President's memorandum.
    Mr. Mica. Okay. We can also get that made part of the 
record.
    Mr. Goldstein, the Federal Government has built 33 new 
courthouses since 2000, and you gave us some indication of how 
much excess space there was. Could you repeat that again? Do 
you have that handy?
    Mr. Goldstein. Yes, sir. We had found that between 2000 and 
2010, of the 33 courthouses that were built, there was 3.56 
million square feet that was overbuilt in the three categories 
I mentioned: one, above authorization; two, because of 
inadequate judgeship projections; and three, because of a lack 
of sharing, particularly among the district judges.
    Mr. Mica. One of the other things that is of concern, we do 
build these new courthouses, and we have existing courthouses, 
is the issue of security. The number of threats have increased, 
more than doubled between 2004 and 2010 according to 
information provided to our committee. Any word on how we are 
meeting that Federal courthouse security problem since 2011, 
Mr. Goldstein?
    Mr. Goldstein. Two things, sir. One is that costs for 
security have risen, obviously, considerably over the years. 
Courthouses cost a lot more to build than they did in the past, 
in part because of that, because you need separate circulation 
patterns for the judges, for the public, and for the marshals 
with their prisoners, and this includes different elevator 
banks and complete circulation patterns. So naturally, that 
adds significantly. We did a report several years ago that 
actually looks at the rising cost and what the parameters were 
within courthouses, and security was one of the largest drivers 
of that cost.
    More recently, the Marshals Service has taken over through 
a pilot project much of the security at courthouses. As you 
know, the perimeters of courthouses are protected by the 
Federal Protective Service, the interiors and the judges by the 
marshals. But this pilot is slowly but surely shifting that 
terrain to the Marshals Service.
    Mr. Mica. Okay. I noticed too in the periphery of the Dyer 
Building and the Ferguson Building that the public is allowed 
public access on the streets. Some of it is closed off to 
vehicular traffic, but that would not need any change in 
operations? Does anyone have any concern about that, Mr. Smith?
    Mr. Smith. I don't have details on that, sir, but we can 
get back to you.
    Mr. Mica. Then again, we are looking at a public street on 
one side, and now it will not be a courthouse. It will be 
Miami-Dade. I don't see any barriers or barbed wire on the 
other side of the street, so it would be utilized by the 
college. It is adjacent to Federal properties and judicial 
properties, and I think there was some concern about sealing 
some access on one side that faces. Dr. Padron, that could be 
resolved do you believe?
    Mr. Padron. Oh, absolutely. We have had discussions when we 
have toured the building about the areas that would need to be 
sealed to prevent access into the adjacent courthouse, and we 
have full understanding of that and are ready to work very 
collaboratively to get that accomplished.
    Mr. Mica. I guess we are getting towards the end here. Mr. 
Smith, to what extent is GSA engaging with the judicial branch 
to assist with their comprehensive real estate asset plans? I 
mean, this isn't the only Federal facility, and we do have 
various needs, and also disposal issues. To what extent are you 
all engaging with the Judiciary?
    Mr. Smith. My region is particularly engaged on that, sir. 
We have about 22 non-resident courthouses that cost us money. 
We don't make money on those. They are very expensive to 
operate. But we also want to help the courts operate more 
effectively and efficiently, and we meet with them on a monthly 
basis, and we are continuing to work with them to see where we 
can find efficiencies, if we can close some of these 
courthouses and find other solutions to those as well.
    Mr. Mica. Okay. In closing, Mr. Smith, the staff calculated 
since my hearing here at the beginning of August until today it 
has cost close to half a million dollars just to maintain the 
vacant building down the street, the Dyer Building. The clock 
is ticking. The cash register is ringing up deficit spending. 
We are closing down facilities and services to the public 
because we are basically on the verge of financial disruption 
in the country. Do you think you can work with us on some sort 
of schedule to take this one off the taxpayer most unfavored 
list?
    Mr. Smith. We are very anxious to do that, sir.
    Mr. Mica. Okay. Well, we are counting on you. You know, I 
try to do these, and we try to work with the agencies, the GSA. 
We have had problems. Of course, last year they did not have a 
good year, starting with the guy in the hot tub, spending money 
like a wild man at the conference, nor did we have a good one 
with some of the other actions by some of the folks, and many 
of those people are now history, and others are trying to pick 
up and do a better job in working with various new 
administrators, new building commissioner and others to see if 
we can assist. Part of this is motivational, and hopefully 
inspirational, and maybe a little spiritual, to get GSA moving 
and assist any way we can.
    So we want a positive outcome, and I hope I don't have to 
come again, Dr. Padron, unless it is for some conveyance 
ceremony to which I might get an invite.
    But I want to thank you all. Does anyone have any final 
comments? Mr. Smith?
    Mr. Smith. No, sir. Thank you for keeping us on the ball. 
This is very important to us as well.
    Mr. Mica. I am sure you enjoy this. Maybe later on you can 
have some root canal work done.
    Mr. Smith. This is very important to us as well.
    Mr. Mica. To get even, on Monday at 7 o'clock, I will be in 
the dental chair myself, so you can take some consolation in 
that torture of Mr. Mica.
    Mr. Goldstein?
    Mr. Goldstein. I appreciate the opportunity to be here and 
look forward to testifying again in May, sir.
    Mr. Mica. We will continue on this. We only have, like I 
said, 13,995. Much to the chagrin of folks, I am back in 
Congress and can continue to do this, and will, because I think 
it is important.
    Dr. Padron?
    Mr. Padron. Just to thank you, Mr. Chairman, for caring.
    Mr. Mica. Well, thank you again, our witnesses and this 
opportunity to hear about a particular situation in Miami with 
the Dyer Federal Courthouse, was also Federal properties, the 
Ferguson Building, other Federal assets throughout the region 
and the United States that are under-utilized. This is a field 
hearing and just a small, myopic view of one situation and one 
instance where we have, unfortunately, poor public policy in 
place and lack of action to resolve fiscal issues. When you add 
them up across the country, they account for not only millions 
but billions of taxpayer dollars.
    So it is my intention to continue this effort. I thank 
everyone for cooperating in this hearing. We do, with the 
cooperation of the minority, intend to leave the record open 
for a period of two weeks. We may have some additional 
questions for our witnesses, and we may also have you or others 
offer to the committee additional testimony that would be 
included as part of the record.
    Mr. Mica. There being no further business before the 
Subcommittee on Government Operations, this hearing is 
adjourned. Thank you.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 81525.028
    
    [GRAPHIC] [TIFF OMITTED] 81525.029
    
    [GRAPHIC] [TIFF OMITTED] 81525.030
    
    [GRAPHIC] [TIFF OMITTED] 81525.031
    
    [GRAPHIC] [TIFF OMITTED] 81525.032
    
    [GRAPHIC] [TIFF OMITTED] 81525.033
    
                                 <all>

</pre></body></html>
